No.

Supreme Court, U.S.
FILED

2o-l03~1

JAN 1 1 2021
PFFICE OF THE CLERIC

3n tlje Supreme Court of tfje SJntteb i§>tate£
Wanda Bowling,
Petitioner,
vs.
JUDGE JOHN ROACH, in his official and individual capacity,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Fifth Circuit
and

■>

the United States Eastern District Court of 'Texas

PETITION FOR A WRIT OF CERTIORARI
Wanda Bowling
Pro Se
Petitioner
Texas Patriot/United States Patriot
2024 W. 15th St. STE. F-138
Plano, Texas 75075
(770) 335-2539
wldahleimer@gmail.com

REC3VED
.IAN 1 4 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

QUESTIONS PRESENTED
1. Whether the Fifth Circuit’s panel’s opinion is in direct conflict with its own
previous decisions, other U.S. Court of Appeals, and with the U.S. Supreme
Court?
2. Whether the Eastern District Court of Texas’s Opinion is in direct conflict
with other federal court rulings deeming Petitioner Vexatious Litigant
issuing a prefiling injunction obstructing remedy?

PARTIES TO THE PROCEEDINGS
AND *RULE 29.6 STATEMENT

Petitioner - Wanda Bowling, Pro Se, Texas citizen
Respondent - Judge John Roach Jr., for the Collin County District Judge in Texas
19-41003
Respondent- District Attorney, Greg Willis for Collin County: 19-40914

*There are no corporations involved in the proceedings.

QUESTIONS PRESENTED
1. Whether the Fifth Circuit’s panel’s opinion is in direct conflict with its own
previous decisions, other U.S. Court of Appeals, and with the U.S. Supreme
Court?
2. Whether the Eastern District Court of Texas’s Opinion is in direct conflict
with other federal court rulings deeming Petitioner Vexatious Litigant
issuing a prefiling injunction obstructing remedy?

PARTIES TO THE PROCEEDINGS
AND *RULE 29.6 STATEMENT

Petitioner - Wanda Bowling, Pro Se, Texas citizen
Respondent - Judge John Roach Jr., for the Collin County District Judge in Texas
19-41003
Respondent- District Attorney, Greg Willis for Collin County: 19-40914

*There are no corporations involved in the proceedings.

Table of Contents
QUESTIONS PRESENTED

1

PARTIES TO THE PROCEEDINGS AND RULE 29.6 STATEMENT

1

TABLE OF AUTHORITIES

in

DOCUMENTS FOR REVIEW

1

JURISDICTION

1

CONSTITUTIONAL PROVISIONS AT ISSUE

1

STATEMENT OF THE CASE

2

REASONS TO GRANT PETITION
I.

Complete obstruction to remedy in State Court

14

II.

Texas Judicial Region necessitates accountability

14

III.

Complete obstruction for ongoing violations and threats

15

IV.

Circuit conflict in application of caselaw for 11th Amendment
and Ex Parte Young.....................................................................

17

A. Standard of Review used in pleadings
B. Application to facts and omissions.....
V.

Circuit conflict in application of caselaw for Younger
Abstention Doctrine......................................................
A. Standard of Review used in pleadings
Application to facts and omissions.....

VI.

18
20

22
22
23

Circuit conflict in application of caselaw for Judicial Immunity.....26
A. Standard of Review used in pleadings.
B. Application to “actions” and omissions

CONCLUSION

26
30

38

n

TABLE OF AUTHORITIES
Cases
Brewer v. Blackwell, 692 F.2d 387, 396- 98 (5th Cir. 1982)

28

Davis v. Scherer, 468 U.S. 183 (1984)

18
27,36

Ex Parte Virginia, 100 U.S. 339, 348 (1879)

17,18,20,21

Ex Parte Young, 209 U.S. 123 (1908)
Ex Parte Young, 209 U.S. at 159-60 (1908)

19

Fitzpatrick v. Bitzer, 427 U.S. 445,456 (1976)

19
27,36

Forrester v. White, 484 U.S. 219,229 (1988)
Forrester v. White, 484 U.S. at 228-30

27,32,33,36

Gregory v. Thompson, 500 F.2d 59 (9th Cir. 1982)

28,32,33,34
18,22

Hafer v. Melo, 502 U.S. 21, 29-30 (1991)

Harper v. Merckle, 638 F.2d 848, 859 (5th Cir. 1981)
28,29,31,32,33,34,35,36,37
Idaho V. Coeur d'Alene Tribe of Idaho, 521 U. S. 261, 296, 298-299..19
29,34,35,37

King v. Love, 766 F.2d 962, 968 (6th Cir. 1985)
Krueger v. Miller, 489 F. Supp. 321, 329 (E.D. Tenn. 1977)
Krueger v. Miller, 489 F. Supp. at 330

29

28,32,33,34,35,36,37

Lopez v. Vanderwater, 620 F.2d 1229, 1235 (7th Cir. 1980)

29,33

Lewis v. Clarke, No. 15-500 (U.S. April 27, 2017)

20,21

McAlester v. Brown, 469 F.2d 1280, 1282 (5th Cir. 1972)
27,29,31,33,34,35
McMillan v. Svetanoff, 793 F.2d at 155

27

in

Middlesex County Ethics Committee v. Garden State Bar Ass’n....
457 U.S. 423 (1982).................................................................................. 22,23
Mireles v. Waco, 502 U.S. 9, 11-12 (1991)

27,31
23

New Orleans Pub. Serv., Inc., 491 U.S. at 353-58

Patsy v. Board of Regents 457 U.S. 496, 102 S. Ct. 2557, 73 L. Ed. 2d
172 (1982).......................................................................................................... 25
Pulliam v. Allen, 104 S. Ct. 1970, 1981, 1982 (1984)

30,37

Scheuer v. Rhodes, 416 U.S. 232,237 (1974)

18

Supreme Court of Virginia u. Consumers Union of the United States,
Inc., 446 U.S. 719, 731 (1980)...................................................................... 27
Va. Office for Prot. & Advocacy v. Stewart, 563 U.S. 247, 254 (2011)...19
Verizon Md. Inc. v. Public Serv. Comm'n of Md., 535 U.S. 635, 645
(2002)..............................................................................................................

19

Younger v Harris, 401 U.S. at 53-54

26

Younger v. Harris, 401 U.S. 37 (1971)

22

Statutes & Rules

18 U.S.C. § 242 Conspiracy against Rights under color of law
30,32,33,34,36
28 U.S.C. § 2101(e) Supreme Court; time for appeal

1

28 U.S.C. § 1254(1) Courts of Appeals; certiorari certified questions... 1
28 U.S.C. §1331 Federal Question

1

28 U.S.C. §1343 - Civil rights and elective franchise

1

28 U.S.C. §1356 - Seizures not within admiralty and maritime
jurisdiction.............................................................................................

1

IV

28 U.S.C. §1367 - Supplemental jurisdiction

1

28 U.S.C. §754 and 959(a) Trustees and Receivers

1

42 U.S.C. § 1988 Proceedings in vindication of civil rights

1

42 U.S.C. §1983 Civil Action for Deprivation of Rights

1,18,25

42 U.S.C. §1985 Conspiracy to Interfere with Civil Rights

1

Fourth Amendment

1

Fifth Amendment

1

Ninth Amendment

1

Eleventh Amendment
Fourteenth Amendment

1,18,19,21
1,19

Texas Statutes and Rules

21

Texas Government Code Sec. 74.051(c) Compensation

Texas Penal Code § 32.47 Fraud Sec

30,34,35,36

Appendix
Appendix A: US Eastern Dist. Ct of Tx Order Vexatious Litigant 4:18-cv-00610
Appendix B: Appellants Brief interlocutory appeal (no judgement) 19-40914
Appendix C: Order dismissing Roach complaints 19-41003
Appendix D: 5th Circuit Order denying Motion for Rehearing 19-41003
Appendix E: Texas judicial appointment statistics

v

DOCUMENTS FOR REVIEW
US Eastern Dist. Court of Texas Order Vexatious Litigant 4:18-cv-00610
Appellants Brief interlocutory appeal of Vexatious Litigant 19-40914
5th Circuit Order dismissing Roach complaints 19-41003
5th Circuit Order denying Motion for Rehearing 19-41003

JURISDICTION
The U.S. Supreme Court also has jurisdiction, per Rule 11: 28 U.S.C. §
2101(e), to review the interlocutory appeal 19-40914 before judgment from the Fifth
Circuit. The appeal was filed 10/30/2019. Briefs were complete by 4/20/2020. It
has been approximately 9 months of waiting. The delay facilitated ongoing
violations.
The date of the Fifth Circuit Judgment in question for case 19-41003 was
5/29/2020. Motion for Rehearing was denied on 8/14/2020. This Petition for a Writ
of Certiorari is filed timely within 150 days per COVID-19 instructions. The U.S.
Supreme Court has jurisdiction under 28 U.S.C. § 1254(1) to review a decision by a
U.S. Court of Appeals.

CONSTITUTIONAL PROVISIONS INVOLVED
Title 42 United States Code 1983 Civil Action for Deprivation of Rights.
Specific matters are brought under 42 U.S. Code§ 1985 Conspiracy to interfere with
civil rights, 28 U.S. Code§ 1356 - Seizures not within admiralty and maritime

1

jurisdiction, 28 U.S. Code§ 1343 - Civil rights and elective franchise, and 28 U.S.
Code§ 1367 - Supplemental jurisdiction at the discretion of this court. Additionally,
subject matters include US Constitution Amendment 4: Search and Seizure,
Amendment 5-Protection of Rights to Life, Liberty and Property-Due Process
clause, US Constitution Amendment 9-Life Liberty and Pursuit of Happiness, and
US Constitution Amendment 14-Rights to Citizenship - Due Process required, 18
U.S Code § 242, and 11th Amendment state sovereignty. Younger Abstention and
Judicial Immunity.

STATEMENT OF THE CASE
This case arises from what began as a simple Divorce proceeding from a
short ten(10) year marriage, no children, to an outbreak of racketeering.
Petitioner had discovered the former spouse, Dahlheimer Jr., had been
stealing equity/funds among other things from Petitioner’s premarital estate
starting year one into their marriage.

A Third Party Fraud suit was added to the

Divorce litigation against the Dahlheimers as their estate was used as collateral to
embezzle funds. The Dahlheimers used their wealth and politically position to
oppress the Petitioner into fear and deplete resources. The simple case snowballed
into a conspiracy of corruption. As newly appointed Judges made fools of
themselves, the case was escalated into higher courts. As the case escalated to
higher courts, fraudulent concealment and tampering with governmental records
were added to the running list of offending constitutional violations. These were

2

the contributing factors that precipitated Petitioner seeking protection in a federal
court. Petitioner is completely obstructed in the state court and has never been
allowed to present her case to restore her premarital assets or obtain 10 years
worth of community.

Facts and procedural history;
1. 3/2015 Petitioner filed for Divorce and a Protection Order against Dahlheimer
for the long history of domestic violence. The Honorable Judge Scott Becker
presided over the case.
2. 9/2015 Petitioners Divorce case was abruptly transferred into Greg Abbott’s
newly appointed Republican Judge Piper McCraw.
3. By 10/2015 Dahlheimer had been caught stalking Bowling for 7 months in
church, declined to produce financials, vandalized Bowling’s property, making
threats, and was finally arrested. Regardless, Dahlheimer continues.
4. Judge McCraw appeared to demonstrate aligning with the wealthy Dahlheimers
than protect Bowling and her interests. McCraw’s reputation on this case in
becoming public and her frustration with opposing attorneys becomes apparent
in her adverse and baseless rulings. She was accused of being reckless and
lawless.
5. McCraw’s favoritism for the wealthy Dahlheimer family protecting their son
gave Dahlheimer Jr. a license to continue stalking, breaking in and vandalizing
Bowling’s home. Bowling was kept in alarm status.

3

6. 11/2015 A Motion to Recuse Piper McCraw was filed.
7. Subsequently, Bowling receives an unrelated letter inviting her to hearing in
another court. No real claim or cause was articulated in the letter except for a
“Glock” for which Bowling owned.
8. Not suspecting a threat, Bowling showed up in court with her brother. Upon the
opening of the hearing the District Attorney Greg Willis, co-conspirator of
McCraw, accused Bowling of stealing this particular gun from Dahlheimer and
demanded incarceration. The evidence Willis provided was an intentional
fabrication of impossibilities. The Judge(unknown name) quickly discerned the
wrongful accusation and frivolous effort to wrongfully incarcerate Bowling. The
Judge allowed Bowling to go free to prove her ownership of the gun.
9. Bowling later demanded an explanation from Greg Willis for this fraudulent
effort to incarcerate and further asked why he denied police protection from
Dahlheimer’s breakins/stalking/threats. His office finally responded after many
requests and allowed an intake. Explanations for Bowling’s questions were
promised by his[Willis] “people”, no response was ever received.
10. In regards to the Motion for Piper McCraw’s Recusal, no due process occurred.
There was no transfer of the case to an admin judge, no appointment of
impartial judge, and no notice of hearing on the recusal. The Recusal was
deemed tried and denied. Entries of the hearing showed up on the docket after
it occurred.

4

11.5/2016 Bowling’s attorney wins over a Summary Judgment citing the current
Plano, Texas residence is primarily owned by Bowling’s separate property
interests where Dahlheimer had $2300.00 community interest. By this time
Bowling had approximately $135,000.00 of separate property invested.
12.5/2016 By this time, Bowling had discovered Dahlheimer’s forgery, fraud, and
the theft of Bowling’s separate properties both Georgia and Texas and her
business($310,000.00). Bowling’s attorney files a third party fraud case inviting
Dahlheimer Sr.(estate trust fund used as collateral in several transactions).
13.6/2016 McCraw obstructs (denies) any advanced discovery pleadings on the third
party fraud, and denies compelling discovery on Dahlheimer’s multiple criminal
fraud on Bowling’s property for which Dahlheimer was in contempt.
14.7/2016 A second Motion to Recuse Piper McCraw was filed.
15. Repeating history, no due process occurred of properly transferring the recusal
case to an admin judge, there was no appointment of impartial judge, and no
notice of hearing on the recusal occurs. The Recusal was deemed tried and
denied. Docket entry appeared after it’s occurrence.
16.7/2016 McCraw holds a Divorce trial without notifying Bowling, which in
essence obstructed Bowling’s attempt to litigate the criminal offenses of
Dahlheimer and the recovery of her stolen assets. McCraw apparently notified
Dahlheimer/Mueller of the hearing. The current docket entry as it stands today
is not true to the occurrence of when the Trial took place.

5

17. In a default Divorce Decree McCraw awarded Dahlheimer half of Bowling’s
separate Real Estate property(already deemed hers in SJ), almost 100% of the
community property, and some of Bowling’s premarital tangible property. In
the Divorce Decree, McCraw kicked Bowling out of her separate property Plano
home and forced the property up for sale.
18. Bowling waved the white flag. Bowling complied with the Divorce Decree and
vacated her home basically penniless.
19.8/2016 Dahlheimer Jr. and his vexatious attorney, Paulette Mueller, filed a
motion for enforcement citing a multitude of false allegations attempting to
incarcerate Bowling. Apparently, Dahlheimer isn’t finished punishing Bowling.
20.10/2016 The Dahlheimers, Mueller, along with their Chicago Title family friend,
Craig Penfold appointed Receiver, brutalized Bowling attempting to oppress her
into submission to sign fraudulent sales paperwork on Bowling’s property.
Penfold attached a $111,000.00 of fake expenses against the property’s equity.
21.10/2016 Bowling was forced to escalate her case to an Appellate Court to push
off the threats and the racketeering scheme in the Trial Court.
22.12/2016 With the assistance of the current Appellate Court regime and a good
attorney Bowling was GRANTED a Motion to Stay Pending Appeal. The Stay
neutralized any enforcement of the Divorce Decree, sale of property, etc. among
other appealable judgments. Penfold, the Receiver, was dismissed. Bowling
took back possession of her vacant property, however, very damaged.

6

23.3/2017 Instead of complying with the Stay Pending Appeal, case now held in
Appellate jurisdiction, McCraw reordered up enforcements of the Divorce Decree
and appointed another Receiver, Rhonda Herres. In addition to this, McCraw
ordered Bowling to vacate her property again attempting to force the sale of the
property. Bowling did not vacate this time as the trial court had no jurisdiction.
Bowling was threatened by corrupt law enforcement(on video: Plano Police Dept,
with no probable cause), more home invasions occurred, theft, tampering with
her car, and McCraw continued to order one unlawful threat after another. This
all occurred during Appellate jurisdiction. Bowling’s attorney, a previous Judge
in the Collin County Court, stepped in and ceased McCraw’s unlawful
adjudication.
24. Bowling wrote a Complaint to the Texas Judicial Commission on Conduct where
there were 3 Greg Abbott newly appointed Republican Judges. No formal
response or success.
25.11/2017 The Appellate Court’s newly appointed(by Greg Abbott), Republican
Judge David Evans, issued an adverse Opinion.
26. Bowling, alarmed at the departure of the “facts” in the Opinion from what is
plainly on the record, went to the Appellate courthouse and requested a copy of
the record on appeal(in their possession). Bowling discovered the three(3) main
trial clerk records designated from McCraw’s court of 87 megabytes which
supported her appeal, were missing in their entirety. Three(3) fake replacement
records of nonsensical documents were present amounting to 4 megabytes.

7

27. The absconded records revealed the gouging of the Receivers, several fraud
accounts of the Dahlheimers/Meuller, Willis’s participation of intimidation, and
the lawless actions of Judge McCraw.
28. Bowling motioned the Appellate court to correct their records for a Rehearing.
Judge Evans DENIED and the Appellate clerk, Lisa Matz, never responded to
Bowling’s request to correct the records. (See #05-16-01196-cv Bowling’s Motion
for Rehearing to the Appellate Court). The tampering of the records now makes
it clear that criminal conspiracy is no longer “conclusionary” at this point.
29. Bowling Petitioned the Texas Supreme Court(TSC) where there were another
three(3) new appointed Republican Judges by Gregg Abbott, to order the
Appellate Court to correct the records and allow a rehearing. The petition was
DENIED without an opinion or any identifiable Judge accountable for the
decision. (See #18-0095 Bowling’s Petition for Review)
30. Now Bowling was fully obstructed from litigating to recover her assets
criminally swindled from her by the Defendants.
31.8/2018 Because of the ongoing interference of police harassment and
Dahlheimer’s escalation of criminal behavior, Bowling filed a Federal lawsuit in
the US Eastern District Court of Texas (4:18-CV-00610) against the
Dahlheimers, attorney Paulette Mueller, Judge McCraw(Trial Court), Judge
Evans(Appellate court), the COA Clerk Lisa Matz, Receivers Penfold and
Herres, and Willis for violating her constitutional rights including Tampering

8

with Government Records, Fraudulent Concealment, Conspiracy to Interfere
with Civil Rights, and other constitutional violations.
32.McCraw continued to preside and refused to recuse herself, so Bowling filed a
preliminary injunction in the Federal court to cease the trial court lawless
aggression. McCraw finally recused herself.
33. Once again corrupt law enforcement(on camera again, same Plano Police)
invited themselves inside Bowling’s home, threatened her, and refused to leave
when Bowling told them “get out”.
34. The threats toward Bowling continued. Bowling amended her TRO to stop the
ongoing violations of the Trial court. The TRO went unanswered.
35. On October 10th, 2018 paperwork was taped to her Bowling’s front door. The
paperwork was a new lawsuit filed by Dahlheimer/Mueller who filed, yet
another, motion for enforcement, citing more false allegations with the intent to
incarcerate Bowling. No ORDER was in place for any kind of “enforcement”.
This new lawsuit(about the sixth lawsuit of same) was initiated while the
Federal lawsuit was in progress. These baseless suits appeared to be nothing but
a threat.
36. The hearing was scheduled in 5 days (inclusive of a weekend) in Republican
Judge John Roach’s court, same Divorce case, but “Re-opened”. Bowling was
scheduled to leave for an out of town engagement (government reporting for her
job: no way to cancel) and she could not get an attorney to represent her on such
short notice. In an effort to remedy the due process issue Bowling filed into the

9

court a request to STAY until the Federal Court ruled on the preliminary
injunction against the State court. Bowling also explained the scheduling
conflict and the lack of due process.
37. Instead of acting judicially fair, Judge Roach held the trial without Bowling.
38. Because an ORDER did not exist for the Dahlheimer/Muellers Motion for
Enforcement to be valid, Roach issued a bizarre “Order for Clarification”. Roach
ordered Bowling to vacate her home within 3 hours of that same day, as the
hearing(impossible to comply), and awarded attorneys fees against Bowling of
$125,000.00 for the one hour hearing. Roach also ordered Herres/Receiver to
take possession of all of Bowling’s belongings present in the home and secure
them away from Bowling(including the home). This unlawful seizure, in
essence, would leave Bowling with no home, belongings, and just the clothes in
her suitcase upon arriving home.
39. Bowling arrived back to her home 2 days later to find Herres, who broke into
Bowling’s home, destroyed her door locks, destroyed the alarm system and
camera system, and was changing the locks on Bowling’s home to lock her out.
Herres directly threatened Bowling.
40. The following day(3 days after the Order for Clarification was issued), and
without a hearing. Roach issued to Bowling an Order to Appear for jail. Roach’s
order to appear held Bowling in “contempt” for not moving out of her 4000 sq ft
home with all of her belonging in 3 hours time while Bowling was serving 1800
miles away. Roach’s ongoing violations escalated.

10

41. Thereafter, in order to stay out of jail, Bowling was forced to sign a false
confession of guilt to all of the false allegations claimed in the “Motion for
Enforcement” invented by Dahlheimer/Mueller.
42. Roach endeavored to work with the conspirators to take Bowling’s residence and
facilitate more gouging by the Herres and the Dahlheimers. Herres , self
proclaimed sellers agent, sold the property, then Roach actively concealed the
financials of the sale.
43. Bowling attempted to remove her state case to the Federal Case currently in
progress for Roach’s ongoing constitutional violations with the same
Defendants(4:19-cv-00022). Bowling requested it be consolidated with the
pending case. Judge Christine Nowak from the Eastern District Court of Texas
wrongly DENIED and remanded.
44. Bowling then filed an independent lawsuit against Roach for the ongoing
violations of her constitutional rights and requested it be consolidated to the
same pending original case(4:19-cv-00144). Judge Christine Nowak from the
Eastern District Court of Texas ignored the consolidation request.
45. Roach responded to the Federal Court with blatant perjury by claiming the
remaining property in question “was awarded to Dahlheimer”. Roach is
concealing the unlawful seizure of Bowling’s assets by fraud on the court.
46. In the meantime, Judge Christine Nowak of the Federal court deemed Bowling a
vexatious litigant with a prefiling injunction suppressing Bowling’s ability to
amend updating the court of the ongoing threats. Bowling filed an interlocutory

11

appeal to the Fifth Circuit to review the Order. Being deemed a vexatious
litigant conflicts with every Circuit’s interpretation in the US Appellate courts
and the US Supreme Court.
47. All briefs for the interlocutory Appeal were completed almost nine months
ago(4/20/2020), yet the court is declining to rule. Leaving Nowak’s Vexatious
Order in place simply facilitated Judge Roach’s next unlawful violations.
Petitioner is requesting the US Supreme Court to review this appealed
Order as the delay has caused irreparable damage.
48. The 5the Circuit court dismissed the lawsuit against Roach, but clearly
misapplied law, omitted law applied to Roach’s actions, and
misarticulated/omitted facts.
49. Bowling appealed the dismissal, but the Fifth Circuit court affirmed the lower
court’s ruling reiterating the same misapplications(19-41003). Petitioner is
requesting the US Supreme Court to review the Circuit Court’s rational
as it does not mirror their own previous application of law or other
Circuit court’s approach. This writ identifies the omissions of the district
court.
50. Roach continued violating constitutional rights. He proceeded by holding two
Zoom phone conference hearings(8/19/2020 and 9/21/2020). This is at a less
restricted time of COVID-19 when the courthouse was open and trials were face
to face with distancing. Zoom meetings were for non-evidentiary hearings. The

12

court never showed up for either phone hearing, yet apparently the hearings
took place. It is unknown when.
51. Without Bowling’s defense, Roach issued a Vexatious Litigant Order against
Bowling to obstruct her while he proceeded to distribute 100% of Bowling’s
remaining equity to the Defendants without oath or evidence. Roach also
violated a declaratory decree in doing so. The damage is irreparable.
52. Bowling requested the court answer Findings of Facts and Conclusions of Law.
Roach declined to answer.
53. Bowling attempted to appeal for remedy in the state court. However, Bowling’s
Notice of Appeal was DENIED by the trial clerk unless Bowling paid $35,000.00.
54. Roach is extorting $35,000.00 from Bowling as payment to Appeal his Vexatious
Litigant order and the unlawful seizure of her remaining assets. Bowling is
penniless and cannot pay the Trial Court this sum of money which prevents
Bowling’s constitutional rights to appeal.(Texas and US Constitution).
55. Bowling filed a letter to the Administrative Judge requesting permission to file
an Appeal only to receive a returned filing from the clerk citing “This does not
appear to be a request to file new litigation”.
56. Roach’s court reporter has received payment from Bowling for Transcripts for
the two phone conferences, yet Bowling has never received the transcripts to file
a Mandamus with the Texas Supreme Court.

13

57. Filing a Writ of Mandamus seems moot in the Texas Supreme Court, which is
the same court that denied correction of the tampered records precipitating this
federal case.
58.The federal court is the only remedy available.

REASONS TO GRANT THE PETITION
I.

Obstruction to remedy in state court.
Petitioner was obstructed in the Texas trial court from presenting the

embezzlement of her separate properties in Georgia/Texas by the Dahlheimers and
presenting her rights to community property in a simple divorce because the divorce
trial was held without notifying her. Petitioner’s appeal was obstructed in the
Texas higher courts due to the convenient disappearance of the entire clerk record
transferred from the Trial court into the appellate record which supported her
appeal. Correction of records DENIED. Petitioner is obstructed in presenting her
case of the intimidating threats and other constitutional violations. Today, Roach
placed a prefiling injunction against Bowling with a price of 35,000.00 to appeal his
latest unlawful orders. Petitioner should be given a remedy for restoration of her
assets which were swindled by the Defendants and to cease threatening aggression.
II.

This particular Texas judicial region necessitates accountability
This particular trial court system of offending state actors serve one of the

largest wealthiest counties in Texas. It is well known as “the Wild Wild West”.

14

12 of 13 Judges were appointed by the Governor to serve as “Republican”
judges. These judges kept their seat ongoing mainly because of no opposition. The
Governor has additionally appointed Judges to the Appellate Court and the Texas
Supreme Court. The appointments are lawless voter suppression. State judges are
supposed to be voted into their seat by the public, NOT appointments. The
Governor has overstepped his authority by appointing 109 judges(25%) in his first
term(2015-2019: Appendix E). These judges have become lawless renegades with
no accountability. The Executive branch, who unlawfully appointed them, protects
their every lawless move. If a candidate challenges the judge’s seat during
elections, they are harassed, intimidated, and in some cases destroyed. See 4:18-cv00380: (A MUST READ), where Suzanne Wooten won a judge seat in this region by
a landslide public vote over the political Judge Sandoval, then Republican state
actors trumped up fabricated charges against Wooten, disbarred her, and
unlawfully incarcerated campaign contributors. Abbott was involved. Federal
jurisdiction should offer remedy to victims and demonstrate an intolerance to the
unconstitutional public corruption. It is imperative for public protection. These
autonomous judges have destroyed families in the spirit of the Republican wealth.

III.

Complete obstruction for ongoing violations and threats
(Question 2)

The irregularities the state trial court found are of such magnitude that they
ought to have had material implication in federal proceedings. But the US Eastern

15

District Court of Texas short-circuited the proper legal inquiry by dismissing all
defendants, omitting the material facts, applying baseless immunities, then issuing
a prefiling injunction to obstruct remedy. The failure of the federal courts
originated with a Magistrate Judge Christine Nowak, who wrote over 250 pages of
distorted facts, misapprehended law, and intentionally misled downstream judges
resulting in a defect of integrity in the federal courts. Nowak’s reports and
recommendations completely omitted offensive actions and the law applied which
was pled clearly in Bowling’s pleadings. Bowling objected and corrected the
volumes of distortions, factual defects, and omissions. The corrections were simply
ignored and the reports were “adopted” as judgment. This concealed and obstructed
facts for downstream judicial reviews. All led to the sanction of defective decisions
by the Fifth Circuit. In the interest of the public having faith in our federal court’s
constitutional protections, this may call for an exercise of this Court's supervisory
power.
Nowak has strong Republican ties to these particular Texas Defendants who
directly promoted her federal seat, favored her spouse, and integrated her into
Texas political associations with the Defendants. The details of those strong ties
are pled in the original case’s appeal 20-40642 p. 13-16. Nowak cannot be
impartial. This appeal provides context for the entire case.
Because of Nowak’s promotion for a Vexatious label with a distorted report,
the appeal of this interlocutory order may fail by defect. The nine month delay(so
far) gave Roach an opportunity to lawlessly distribute the remainder of Petitioner’s

16

interests and completely obstruct her from requesting appellate review of his
ongoing violations(or any future lawlessness) by deeming Bowling Vexatious
piggybacking on the federal order, now in appellate jurisdiction. On it’s face, this
chain of events(and inactions) paints a picture of the federal court conspiring with
the state court to obstruct Petitioner. The obstruction appears political, not judicial.
Petitioner filed a complaint of Nowak, but investigation was “abated”.
Petitioner’s lawsuit hardly mimics a Vexatious Litigant by any US Court and
Texas standards of review.

IV.

There is a Circuit conflict of application for the 11th Amendment
and Ex Parte Young
(Question 1)
The Fifth Circuit court’s application of the 11th Amendment fails when there

is a disparate translation between Circuit courts over defining “ongoing violations”.
It is unknown what the Fifth Circuit court’s translation is based on. The Opinion
appeared to have a critical misunderstanding of the facts on record which may have
constituted a defect in integrity in their decision or their approach in application.
Example: Fifth Circuit states “At the time Bowling filed her federal complaint,
Judge Roach had scheduled a hearing regarding the sale of certain property outlined
in her divorce” This is factually defective. Roach wasn’t even participating in any
state proceedings when Petitioner filed her federal complaint.

17

Roach took over(10/2018) McCraw’s court several months after the original
complaint was filed in federal jurisdiction 8/2018. Petitioner filed multiple TROs to
stop Roach’s ongoing violations before adding him into the federal court’s
jurisdiction with a Complaint of accumulated ongoing constitutional
offenses(Jan/Mar 2019). Nowak denied the TROs.

STANDARD OF REVIEW: Eleventh Amendment and Ex Parte Young
42 U.S.C. § 1983 authorizes claims against state officials allowing Injunctive
relief if in their official capacity and compensatory and punitive damages in their
individual capacity, a principle which was demonstrated in Brandon v. Holt, 469 US
464, 105 S. Ct. 873, 83 L. Ed. 2d 878 (1985). This was the premise of Roach’s
lawsuit.
The Eleventh Amendment limits official capacity claims against certain state
officials(not all) to prospective injunctive relief. It does not affect damage claims
against those officials in their individual capacity, Hafer v. Melo, 502 U.S. 21, 29-30
(1991); Scheuer v. Rhodes, 416 U.S. 232,237 (1974), Davis v. Scherer, 468 U.S. 183
(1984).
While state officials can generally invoke sovereign immunity when sued in
their official capacity, they cannot do so in one specific instance. In Ex Parte Young,
the Supreme Court held that a private litigant can bring suit against a state officer
for prospective injunctive relief in order to end “a continuing violation of federal
law.” Ex Parte Young, 209 U.S. 123 (1908).

A state official who enforces ‘“an
18

unconstitutional legislative enactment. . . comes into conflict with the superior
authority of [the] Constitution,’ and therefore is ‘stripped of his official or
representative character and is subjected in his person to the consequences of his
individual conduct. The State has no power to impart to him any immunity from
responsibility to the supreme authority of the United States.’” Va. Office for Prot. &
Advocacy v. Stewart, 563 U.S. 247, 254 (2011) (quoting ex Parte Young, 209 U.S. at
159-60).
To determine when Ex Parte Young applies, courts perform a straightforward
inquiry into whether [the] complaint alleges an ongoing violation of federal law and
seeks relief properly characterized as prospective.” Verizon Md. Inc. v. Public Serv.
Comm'n of Md., 535 U.S. 635, 645 (2002) (quoting Idaho V. Coeur dAlene Tribe of
Idaho, 521 U. S. 261, 296, 298-299.
Finally, the states surrendered a portion of the sovereign immunity that had
been preserved for them by the Constitution when the Fourteenth Amendment was
adopted. Therefore, Congress may authorize private suits against non- consenting
states to enforce the constitutional guarantees of the Fourteenth Amendment. The
Eleventh Amendment is a constitutional limit on federal subject matter jurisdiction,
and Congress can override it by statute only pursuant to the enforcement power of
the Fourteenth Amendment. Fitzpatrick v. Bitzer, 427 U.S. 445,456 (1976) (under
the Fourteenth Amendment, Congress may "provide for private suits against States
or state officials which are constitutionally impermissible in other contexts.").

19

And lastly, another exception to Sovereign immunity is explained in Lewis v.
Clarke, No. 15-500 (U.S. April 27, 2017) Borrowing from “arm-of-the-state”
principles, infra Section II.D, the Court reasoned that the “critical inquiry is who
may be legally bound by the court’s adverse judgment, not who will ultimately pick
up the tab.” Lewis, slip op. at 9.

Not all judges are an arm-of-the-state?

APPLICATION TO FACTS AND OMISSIONS: Eleventh Amendment and Ex Parte
Youns
The Circuit application disparity might be caused by the translation of
“ongoing violations”. Also omitted was caselaw application of Ex Parte Young’s
exceptions.
Ex Parte Young, 209 U.S. 123 (1908) does allow injunctive prospective relief
in official capacity claims by private lawsuits from individuals negatively affected
by the constitutional violations of state government officials. Bowling clearly
requested such relief in her multiple TROs to stop Roach prior to filing a complaint
against him directly in federal jurisdiction. Roach can be held in his official
capacity as his actions to violate constitutional rights were intentional. Roach
acted well outside his legal authority. Ex Parte Young, 209 U.S. 123 (1908) does
apply.
In the original Federal lawsuit filed, Judge McCraw was the Trial court
offender who violated Bowling’s constitutional rights. After the original Federal
lawsuit was in progress Judge Roach participated in the “re-opened” Trial case.

20

Petitioner added him later to the lawsuit for continued constitutional violations in
that court.
The Fifth District Opinion was mistaken factually when it states “she did not
allege” ongoing violations. The mistaken statement is assumed to be caused by a
disparity in translation of “ongoing violations”, but it is still not clear of the 5th
Circuit’s translation. Ex Parte Young obviously applies. Roach can be sued for
prospective injunctive relief and the Fifth Circuit confirmed Petitioner properly
requested such relief(among other relief).
Regardless, when executing a “critical inquiry” into Roach’s status as official
he serves a specific county, bound by that territory. Ultimately, he is paid out of
county funds from the region. Government Code Sec. 74.051(b)(c)(d) where it
clearly district judges are paid by counties in administrative judicial region on a pro
rata basis based on population, “The salary set by the Texas Judicial Council shall
be apportioned to each county in the region according to the population of the
counties in the region and shall be paid through the county budget process". Roach
is not an “Arm of the state” rather he is an arm of the county for which he serves.
While the state may issue the check, the funds are from the county budget. Roach
is not truly a “State Official” earning Sovereign immunities. It should not matter if
the Attorney General defends the judge, it matters who should be legally bound by a
decision of accountability, Lewis v. Clarke, No. 15-500 (U.S. April 27, 2017).
Lastly, Sovereign immunity and the Eleventh Amendment only attach
immunity in Official Capacity, NOT individual capacity. Judge Roach can be held

21

liable in his individual capacity if other immunity doctrines fail, Hafer v. Melo, 502
U.S. 21, 29-30 (1991), et. al.

V.

There is a Circuit conflict of application for the Younger
Abstention Doctrine
(Question 1)
The Fifth Circuit invoked the Younger abstention doctrine to defend Roach’s

accountability in his individual capacity. The Court assumed “any” state
proceeding would fall under the 3 prongs of competing issues, state policy, and state
provision of adequate opportunity. While the opinion states caselaw well, they did
not apply them appropriately.

STANDARD OF REVIEW: Younger Abstention Doctrine:
The Younger Abstention doctrine, derived from Younger v. Harris, 401 U.S.
37 (1971), is a defense where the United States court may refuse to hear a case if
hearing the case would potentially intrude upon the powers of another court. Such
doctrines are usually invoked where lawsuits involving the same issues are brought
in two different court systems at the same time (such as federal and state courts).
The U.S. Supreme court facilitated a three prong test by their decision in
Middlesex County Ethics Committee v. Garden State Bar Ass’n 457 U.S. 423 (1982).
These requirements are used by most of the Federal courts as a guide to apply
abstention or refrain.

22

The U.S. Supreme Court emphasized the importance of the federal courts’
role in exercising the jurisdiction granted to them to protect and enforce individual
rights. The Court stated that “our cases have long supported the proposition that
federal courts lack the authority to abstain from the exercise of jurisdiction that has
been conferred.” The Court reiterated that abstention is the “exception, not the
rule,” and further declared that the circumstances in which federal court abstention
is appropriate have been “carefully defined” by the Court. New Orleans Pub. Serv.,
Inc., 491 U.S. at 353-58

APPLICATION TO FACTS AND OMISSIONS: Younger Abstention:
The Fifth Circuit Court assumed the 3 prongs covered any judicial
proceeding in the state court, Middlesex, 457 U.S. at 434. The Opinion simply did
not properly apply the prongs to the facts.
First prong: The Fifth Circuit Opinion mistakenly believes there is an
“ongoing state judicial proceeding” ensuing. However, the proceeding must have
competing issues.
Federal jurisdiction must abstain if the subject matter is competing with the
state jurisdiction subject matter.

Bowling's claims in the Federal court are

unlawfully seizing property, conspiracy to interfere with civil rights, abuse and lack
of due process,(See Constitutional provisions in writ), etc. The state court
proceedings of divorce ended four(4) years ago(2016) and any state remedy was
exhausted through the Texas Supreme Court(2018) for that subject matter. There

23

is nothing in the state court remaining that has any relevance to the Federal issues,
however, Roach continues to find ways to violate more constitutional rights. The
Defendants in the original case keep re-opening state proceedings(6 times
approximately) with fabricated “enforcement” rhetoric to threaten Bowling and
attempt to usurp other courts jurisdiction. Still, “Enforcement” does not mirror
Bowling’s complaint of violations in the Federal court. The Abstention is not an
applicable defense to dismiss Judge Roach.
The first prong fails. The interests in each court do not mirror or compete.

Second prong: The Fifth Circuit court misapplied the second prong where
federal courts should abstain from trampling over “important State interests”. The
fabricated “Enforcement” proceedings in the state court is not of “important State
interest” for which Texas state agencies have policy involvement. The Opinion also
misapplied the Burford Abstention doctrine. The Burford Abstention is a 1943
creation to preserve state jurisdiction for regulating state agencies to further policy.
None of the Bowling’s complaint has any subject matter infringing on state agency
policies.
The second prong fails. There are no state policies at risks.

Third nrong is satisfied only when the state “provides an adequate
opportunity to raise federal challenges”. This would be applied correctly by the
Fifth Circuit, however, Bowling’s entire premise of her complaint is regarding the

24

lack of “adequate opportunity to raise federal challenges”, complete obstruction, in
the state court. Bowling went all the way to the Texas Supreme Court obstructed
at the state court level(held trial without notice to Petitioner) and Appellate courts
where the implicating clerk records disappeared(correction of records DENIED). If
the highest court in Texas obstructed correction, supported the tampering of
governmental records, and denied Bowling’s last attempt at remedy to restore her
stolen assets, then, Bowling has exhausted any state court remedy. Obstruction to
adequate remedy in the state court is the grounds for Bowling’s federal complaint.
Today, Roach is currently obstructing Bowling from utilizing Texas courts by
his impromptu issuance of a prefiling injunction with a $35,000.00 price to file an
appeal AND he has also directed his court reporter to delay producing(or not
produce) transcripts for all of his hearings obstructing Bowling from filing a
mandamus in the Texas Supreme Court. Obstruction to leverage higher courts is
ongoing. Any opportunity has been obstructed.
The Fifth Circuit opinion states twice that Bowling has not exhausted all state
remedies. Even if Roach wasn’t actively obstructing Bowling’s access to the state
courts(which he is), according the U.S. Supreme Court there is no requirement to
exhaust remedies under 42 U.S.C.A. § 1983, Patsy v. Board of Regents, 457 U.S.
496, 102 S. Ct. 2557, 73 L. Ed. 2d 172 (1982).
Third prong fails. State court remedy is not adequate and Federal remedy is
the only remedy available.

25

Younger Abstention exceptions do apply to Bowlins’ case. Completely
omitted by the Fifth Circuit court was addressing the exceptions to Younger
Abstention. There are three exceptions to Younger abstention where the prosecution
is in bad faith, or where the prosecution is part of some pattern of harassment
against an individual, or where the law being enforced is utterly and irredeemably
unconstitutional, Younger u Harris, 401 U.S. at 53-54. Roach has demonstrated all
of these exceptions. Bowling supported these exceptions by the facts on record.
The Fifth Circuit panel simply omitted addressing Roach’s actions in their
opinion.

VI

There is a Circuit conflict in application of Judicial Immunity
(Question 1)

The Fifth Circuit appeared to apply judicial immunity to Judge Roach
because he was a judge instead of applying the caselaw, including their own
caselaw, to his actions.
The caselaw and actions described below are omitted from any Magistrates
report, court opinion, or the Mandate from the Fifth Circuit. This court should
determine if these acts should go unchecked or addressed.

STANDARD OF REVIEW: Judicial Immunity:
The legal standards used for Petitioners lawsuit and appeal are as follows:

26

Immunity attaches to the act itself, not the person performing the act. Thus,
an act is not judicial merely because a judge performs it. Forrester v. White, 484
U.S. 219, 228-29 (1988).
There are two circumstances where Judicial Immunity is overcome Mireles v.
Waco, 502 U.S. 9, 11-12 (1991): “a judge is not immune for non-judicial actions, i.e.,
actions not taken in a judicial capacity” and “a judge is not immune for actions,
although judicial in nature, done in complete absence of all jurisdiction".
To define “non-judicial”, a judge’s actions are considered non-judicial when it
does not require an exercise of judicial discretion or a determination of parties'
rights which includes ministerial, administrative, and legislative acts (inclusive, but
not limited to). These acts are not entitled to Judicial Immunity. See Forrester v.
White, 484 U.S. at 228-30; Supreme Court of Virginia v. Consumers Union of the
United States, Inc., 446 U.S. 719, 731 (1980; Ex Parte Virginia, 100 U.S. 339, 348
(1879).
As one court noted, a judge does not "utilize his education, training, and
experience in the law" to perform such acts. Typically, a layperson could perform
these non-judicial acts. See Forrester v. White, 484 U.S. at 229; Ex Parte Virginia,
100 U.S. at 348. Because these acts do not involve any exercise of judicial
discretion, the goal of judicial independence does not require that the law extend
absolute immunity to them. See McMillan u. Svetanoff, 793 F.2d at 155.
To define “judicial acts” the Fifth Circuit court, themselves, led other courts
in their approach leveraging McAlester v. Brown, 469 F.2d 1280, 1282 (5th Cir.

27

1972) citing 4 factors to determining “judicial acts” (1) whether the precise act
complained of is a normal judicial function; (2) whether the acts occurred in the
courtroom or appropriate adjunct spaces such as the judge's chambers, and “looks to
the expectations of the parties”; (3) whether the controversy centered around a case
pending before the court; and (4) whether the acts arose directly out of a visit to the
judge in his official capacity.
In one instance, the Fifth Circuit court, determined that immunity is not
available “where the court found the “holding a contempt proceeding and ordering
plaintiff incarcerated were not judicial acts where controversy that led to
incarceration did not center around any matter pending before the judge, but
around domestic problems of plaintiff former wife, who worked at the courthouse.”
Harper v. Merckle, 638 F.2d 848 (5th Cir. 1981). If actions of a Judge are
precipitated by extrajudicial influence the acts are not “judicial acts.
According to the Fifth Circuit Court in Brewer v. Blackwell, 692 F.2d 387
(5th Cir. 1982). "When it is beyond reasonable dispute that a judge has acted out of
personal motivation and has used his judicial office as an offensive weapon to
vindicate personal objectives, and ... no party has invoked the judicial machinery
for any purpose at all. . .," his acts are nonjudicial(quoting Harper v. Merckle, 638
F.2d at 859(5TH Cir); Krueger v. Miller, 489 F. Supp. at 330).
Legal scholars and jurists have characterized non-judicial conduct as 1)
conduct not requiring judicial discretion, or 2) highly aberrational behavior.
Gregory v. Thompson, 500 F.2d 59 (9th Cir. 1982).

28

Conduct is “aberrational” if it is “a deviation or departure from what is
normal, usual, or expected”(factor 2 in McAlester v. Brown) or something that is
“abnormal, diverging from the norm.
Courts have characterized "highly aberrational" behavior, acts, as non­
judicial when judges have engaged in such as performing arrests and summary
trials, Brewer v. Blackwell, 692 F.2d 387, 396- 98 (5th Cir. 1982) (finding that a
justice of the peace's alleged arrest of four men at a garbage dump, who then
engaged in an automobile chase with one of the men and conducted a summary trial
was not a judicial act); Harper v. Merckle, 638 F.2d 848, 859 (5th Cir. 1981)
(concluding that a judge's jailing of a man for contempt when he entered the judge's
chambers to make an alimony payment to a court employee was not a judicial act);
Lopez v. Vanderwater, 620 F.2d 1229, 1235 (7th Cir. 1980) (determining that a
judge's prosecutorial conduct in determining the charges against an arrested man
was not a judicial act); Krueger v. Miller, 489 F. Supp. 321, 329 (E.D. Tenn. 1977)
(holding that a justice of the peace acted outside the limits of his lawful authority
when he displayed a false badge and arrested a woman).
Other examples include intentionally misleading police officers as to the
identity of a person named on an arrest warrant, King v. Love, 766 F.2d 962, 968
(6th Cir. 1985).
AND lastly, Judicial immunity does not bar "prospective injunctive relief
against a judicial officer acting in her judicial capacity," nor does it bar an award of

29

attorney's fees under 42 U.S.C. § 1988. Pulliam v. Allen, 104 S. Ct. 1970, 1981, 1982
(1984).

STANDARD OF REVIEW of Criminal exceptions preventins Immunity

Texas Penal Code Sec. 32.47. FRAUD includes, fraudulent concealment,
forgery, stealing funds, misrepresenting improvements to gain false funds.
18 U.S Code § 242 Deprivation of rights under color of law. Whoever, under
color of any law, statute, ordinance, regulation, or custom, willfully subjects any
person in any State, Territory, Commonwealth, Possession, or District to the
deprivation of any rights, privileges, or immunities secured or protected by the
Constitution or laws of the United States, or to different punishments, pains, or
penalties,..(remaining citation omitted)

APPLICATION TO ACTIONS AND OMISSIONS: Judicial immunitv/criminal:
None of Roach’s actions are addressed in any report and recommendation, yet
they are present in Bowling’s complaint/pleadings. Judicial immunity applies to a
judge’s actions, not the position.
According to previous decisions by the Fifth Circuit court, other Circuit
courts, and the US Supreme Court, Roach cannot enjoy Judicial Immunity for the
following reasons:

30

1. Petitioners Divorce was settled 7/2016. Two years later a Federal lawsuit
was filed 8/2018. At this time Roach had never met Petitioner. As the federal
lawsuit progressed Defendants (Dahlheimer, et al) filed another “Motion for
Enforcement” in the trial court with the typical false allegations meant to threaten
and intimidate. Then, Defendants invoked Rooker-Feldman to the federal court in
their motions to dismiss. However, after two years of being divorced, no viable
Order was in place to warrant any “Enforcement” hearing. Without proper notice of
a hearing and in the absence of Petitioner, Roach issued an order called “Order for
Clarification”. In the spontaneous “clarification”, Roach ordered a Receiver to break
into Bowling’s home that same day of the hearing and unlawfully seize all of
Bowling’s separate property of her entire household of belongings. This property
was not in controversy or mentioned in any motion pending before the court as a
subject matter, nor was she in debt. Because Bowling’s separate property was not
subject matter pending before the court, the action must be deemed outside Roach’s
jurisdiction to adjudicate and unlawfully seize, Mireles v. Waco, 502 U.S. 9, 11-12
(1991). The act clearly violates factors (3) of McAlester v. Brown, 469 F.2d 1280,
1282. Further, factors 2) and (4) of McAlester deem Roach’s actions are not judicial
because the subject matter of Petitioner’s separate personal property did NOT
“arise out of the adjunct spaces of the court or in the judge's chambers”. As a matter
of fact, the subject matter didn’t arise anywhere. Petitioner’s separate personal
property was not a subject matter in controversy before the court. Harper v.
Merckle, 638 F.2d 848 (5th Cir. 1981). Further, there was no purpose served to

31

criminally break into Bowling’s house and unlawfully seize the property and
spontaneously order to lock the owner out of the residence and lock the separate
property away from owner. This lends to violating 18 U.S Code § 242 for which
there is no immunity. It would also appear that extrajudicial motives are at play
for Roach’s acts since he had never met Bowling. Extrajudicially motivated acts
cannot be construed as judicial. Roach used his judicial office as a weapon to satisfy
his motives Harper v. Merckle, 638 F.2d at 859; Krueger v. Miller, 489 F. Supp. at
330. Roach’s relationships with the Defendants in the same court (Judge McCraw,
Greg Willis, Judge Evans) precipitated his actions that cannot be defended with
judicial immunity. It also appears the action was beyond the point of egregious and
fit the aberrational (inexplicable and deviating) definition applying Gregory v.
Thompson, 500 F.2d 59 (9th Cir. 1982).
2. In the same “Order for Clarification” in Bowling’s absence, Roach’s ordered
Petitioner to vacate her 4000 sqft home (with all belongings) within 3 hours time,
same day as the 10/15/2028 hearing. This task was not possible for any human
being nor was it lawful by Texas statutes. This impossible order would serve no
purpose for any party. Then, three days later after Roach issued this order he
served Bowling with an “Order to Appear” for jail for contempt of not complying
with the impossible order. This was an impromptu order with no hearing on the
matter. It doesn’t take judicial discretion or the education of a judge to assert this
progression of orders was a trap/scheme to impose undeserving harm to Petitioner.
See Forrester v. White, 484 U.S. at 228-30. The lack of practical purpose for this

32

entrapment of contempt is demonstrative of extrajudicial motivations that
precipitated Roach’s actions and cannot be covered by judicial immunity, Harper v.
Merckle, 638 F.2d 848, 859; Krueger v. Miller, 489 F. Supp. at 330. Roach had
never met the Petitioner up to this point. To issue an order where it is impossible to
comply, then issue an order to incarcerate for not achieving the impossibility are
actions of a judge that is a deviation without legal authority, Gregory v. Thompson,
500 F.2d 59 (9th Cir. 1982).
3. Roach’s Order to Appear for incarceration did not arise out of any hearing.
No hearing took place to assert Petitioner was in contempt which would make the
action non judicial to order such an appearance for jail if the determination did not
take place in the courtroom or in front of the Judge in his official capacity per
factors (2) and (4) of McAlester v. Brown, 469 F.2d 1280. The order is prosecutorial
for which there is no judicial immunity, Lopez u. Vanderwater, 620 F.2d 1229, 1235
(7th Cir. 1980). Roach simply made his own determinations. To lawlessly threaten
Bowling’s freedom for non-jailable offenses AND fabricate reasons under color of
law violates 18 U.S Code § 242 for which there is no immunity.
4. Roach’s actions of awarding attorney’s fees of $125,000.00 for one hearing
does not take discretion or education to assert the award is not mathematically
possible which questions it’s judicious nature, Forrester v. White, 484 U.S. at 228-30
and must have a motive around this action which cannot be defended by judicial
immunity, Harper v. Merckle, 638 F.2d 848, 859; Krueger v. Miller, 489 F. Supp. at
330. Ultimately, this award was used to unlawfully take more of Petitioners

33

property. The outrageous $125,000.00 award against Bowling appears on its face to
be beyond the point of egregious and fit the aberrational definition applying
Gregory v. Thompson, 500 F.2d 59 (9th Cir. 1982). This unlawful seizure and theft
by taking is a violation of 18 U.S Code § 242, for which there is no immunity.
5. Thereafter, forcing Petitioner to sign a false confession or be incarcerated,
without a hearing, is not an action that is immune applying McAlester v. Brown
469 F.2d 1280, 1282 of factor(3) no controversy before the court, further (2) and (4)
being there was no hearing or action in a court or judges chambers. Roach’s actions
appear beyond the point of egregious and fit the deviation of “expected” applying
Gregory v. Thompson, 500 F.2d 59 (9th Cir. 1982). The forcing of a false confession
is Roach’s attempt to conceal that he used his official capacity as a weapon, Texas
Penal Code Sec. 32.47 fraudulent concealment. Extrajudicial motives precipitated
Roach using his official capacity as a weapon and coverup applying Harper v.
Merckle, 638 F.2d 848, 859; Krueger v. Miller, 489 F. Supp. at 330; King v. Love, 766
F.2d 962, 968 (6th Cir. 1985). The threat to incarcerate Petitioner if she doesn’t
sign a false confession is a violation of 18 U.S Code § 242.
6. Bowling’s previously awarded Real Estate property interests, though only
half, by the Divorce Decree(2016) was never disputed, or mentioned in any motion
before any judge, and no hearing to dispute it ever occurred. Roach declared it to
be awarded to Dahlheimer and unlawfully seized it. Roach’s unlawful seizure
would not be covered by Judicial immunity since the property was not a subject
matter in controversy pending before the court applying McAlester v. Brown, 469

34

F.2d 1280, 1282 factor (3) no controversy before the court, (2) and (4) being there
was no hearing to dispute the property interest. Roach just acted on his own. It
would seem extrajudicial influences precipitated Roach’s declaration of “re-award”
in direct conflict with the Divorce Decree. Harper u. Merckle, 638 F.2d at 859. See
also Krueger u. Miller, 489 F. Supp. at 330. This is a violation of a declaratory
decree.
7. To conceal his unlawful seizure Roach falsely stated to a federal court that
Bowling’s remaining property interest “was awarded to Dahlheimer”. The Divorce
Decree clearly says differently and there has never been a dispute over it. Roach
does not appear to have earned judicial immunity by covering up this unlawful
seizure applying Harper v. Merckle, 638 F.2d at 859. See also Krueger v. Miller, 489
F. Supp. at 330, and McAlester v. Brown, 469 F.2d 1280, 1282 absent of all
factors(1)(2)(3), and (4). Also, the court should apply the misleading of court
officials applying King v. Love, 766 F.2d 962, 968 (6th Cir. 1985). The court should
also consider Texas Penal Code Sec. 32.47 fraudulent concealment and fraud on the
court.
8. Roach’s actions to deny Petitioner access/view and participation in the
sales/financials of the forced sale of her home served no purpose unless there
needed to be some sort of concealment. Petitioners attorney specifically directed
viewing of the absent financials. Roach denied. If Petitioner owned the property,
Petitioner’s financial security is at stake especially since Roach knowingly was
aware of the forgeries by Dahlheimer that caused Petitioner’s initial losses. Roach

35

facilitated the threats, forgeries, and theft of the Defendants who are currently
accused of criminal fraud and TPC 32.47 fraudulent concealment and 18 U.S Code §
241 and 242. Roach is a participant in these acts.

The concealment is not

discretional if he is innocent. The denial of review is administrative and cannot be
covered by judicial immunity, Forrester v. White, 484 U.S. at 229; Ex Parte Virginia,
100 U.S. at 348. If there were extrajudicial purposes to deny revealing financials
then there is no judicial immunity Harper v. Merckle, 638 F.2d at 859. See also
Krueger v. Miller, 489 F. Supp. at 330
9. Judge Roach’s actions of telling his court reporter to delay producing court
transcripts to cripple Petitioners ability to timely appeal and is not a judicial act.
This is obstruction of justice for which cannot be immune. This is an administrative
act applying Forrester v. White, 484 U.S. at 228-30. There are hearings today that
Petitioner has paid for transcripts and never received them. It has been four and
five months. These were less than 1 hour hearings. Roach stated this was a
judicial act in his pleadings.
10. Immediately right after Petitioner’s complaint against Roach was dismissed.
partially for claiming there is “adequate remedy in a state court”, Roach promptly
closed that opportunity by deeming Petitioner a Vexatious Litigant with a high
price of forcing her to pay $35,000.00 if she desires to appeal his lawless Vexatious
Litigant order or unlawfully distributing Petitioner’s equity to others. All of this
violates Texas statutes and is a grave obstruction of justice. The obstruction to
appeal and extortion of money are both actions with a motive that is not relative to

36

subject matters before the judge. The actions must not be defended by judicial
immunity Harper v. Merckle, 638 F.2d at 859. See also Krueger v. Miller, 489 F.
Supp. at 330. Clearly Judge Roach misled the federal court knowing his plan to
breach the state remedy defense, King v. Love, 766 F.2d 962, 968 (6th Cir. 1985)
11. Judicial immunity does not bar injunctive relief. Pulliam v. Allen, 104 S. Ct.
1970, 1981, 1982 (1984). Roach inflicted an incredible amount of damage after
Petitioner requested a Temporary Preliminary Injunction in 9/2018 from the
Federal court. The District Court Magistrate Judge wrongly DENIED it. In the
very least Petitioner deserves to be placed back at status quo and damaged reversed
from the point of 9/2018.

37

CONCLUSION:

Petitioner prays this court grant review of dismissing Petitioner’s complaints
against Judge Roach(19-41003) and remand to a fair tribunal allowing Petitioner to
present her case for restoration(for the first time). In the least it is requested the
court award retroactive injunctive relief from the point of 9/2018 where Petitioner
requested a preliminary injunction in the U.S. Eastern District court to prevent
Roach from further damages, yet it was wrongly denied.
Petitioner further requests this court grant review of the interlocutory appeal
of Vexatious Litigant (19-40914) (unanswered for nine months)
Petitioner humbly bows to the overall decision of whether the entire case
requires review including the ongoing violations after Roach was dismissed not
reviewed by any court.

Respectfully submitted,
/

ancfa Bowling
Petitioner, Pro Se
2024 W. 15th St. STE. F-138
Plano, Texas 75075
(770) 335-2539
wldahleimer@gmail.com

38

